         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Alleged Nepotism and Wasteful
Spending in the Office of Energy
Efficiency and Renewable Energy




DOE/IG-0888                        June 2013
                                  Department of Energy
                                      Washington, DC 20585

                                           June 6, 2013


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Alleged Nepotism and
                         Wasteful Spending in the Office of Energy Efficiency and Renewable
                         Energy"

INTRODUCTION AND OBJECTIVE

The Department of Energy (Department) administers various hiring programs designed to
generate a pipeline of talent to replenish its workforce and to maintain overall workforce vitality.
One of those programs is the Student Temporary Employment Program (STEP), which provides
opportunities for students in high school and college to gain work experience, while enhancing
their awareness of the Department's mission and functions. In order to streamline the hiring
process, STEP appointments are exempted from the usual competitive selection examining
procedures; however, this streamlined process does not negate the responsibility for ensuring a
fair and open competitive process during the selection of STEP participants. The Department's
Office of the Chief Human Capital Officer (Human Capital) has primary oversight of the
Department's hiring processes, including STEP. While Human Capital provides various hiring
related services to a number of program offices, selection authority is vested in individual
program offices.

Title 5 U.S. Code, Section 3110 (b), Employment of Relative Restrictions, and Section 2302 (b),
Prohibited Personnel Practices, indicates, in part, that a public official may not appoint, employ,
or advocate for the appointment or employment of a relative in the agency in which the public
official is serving. Furthermore, Title 5 Code of Federal Regulations (CFR), Section 2635.702,
Subpart G, Misuse of Position, states, in part, that employees shall not use their public office for
the private gain of relatives. Additionally, Subpart E of Title 5 CFR, Section 2635.501,
Impartiality in Performing Official Duties, states, in part, that an employee should not participate
in a particular matter known to affect the financial interest of a member of the employee's
household. Recently, the Office of Inspector General (OIG) received allegations that a senior
Office of Energy Efficiency and Renewable Energy (EERE) official had violated these
regulations by: (1) engaging in nepotism by advocating for his three children to obtain STEP
employment at the Department; and (2) wasting funds by enrolling two of the three children in
costly training courses unrelated to their duties as STEP interns. We initiated the inspection to
examine the facts and circumstances surrounding the allegations.

RESULTS OF INSPECTION

Our inspection substantiated the allegation that the senior EERE official was actively involved in
securing STEP intern appointments at the Department for his three college-aged children. The
                                                 2

allegation related to enrolling his children in inappropriate training was not substantiated. We
determined that the senior EERE official:

    •   Contacted a number of Department officials within various program offices to inquire
        about STEP intern opportunities for his children. In some instances, the senior EERE
        official spoke with program officials regarding his children's qualifications and/or
        provided them with resumes for his children.

    • In one instance, the senior EERE official contacted officials within the Office of the
      Chief Information Officer a number of times to follow up on his inquiries regarding
      STEP employment for one of his children. In this example, the contacted program office
      decided to reverse its previously announced decision to not hire interns during Fiscal
      Year (FY) 2012 and subsequently hired one of the senior EERE official's children as a
      STEP intern.

All three of the senior EERE official's children were hired by Department program offices as
STEP interns during FY 2012. Two of the official's three children worked for EERE. The
senior EERE official told us that he did not believe there was any wrongdoing on his part. He
indicated that based on his personal observations, the practice of employees providing resumes
and/or inquiring about employment for a STEP position on behalf of relatives was common. He
also indicated that he had previously sought advice from an EERE Human Resources official
regarding employment of his children and was told that there was not a concern if the children
did not work under the relative's direct supervision.

In addition, the two officials that made hiring selections for the senior EERE official's children
ultimately told us that they did not feel pressured by the official inquiring about STEP
opportunities for his children. Those same officials also indicated that they believed it was a
common practice for individuals to provide resumes or to inquire with various program offices
in an effort to secure STEP intern employment opportunities for relatives. These officials stated
that they did not believe there was a violation of nepotism rules or other personnel prohibited
practices such as misuse of position unless the STEP intern reported directly to their relative.

During the interview, the senior EERE official stated that he recalled contacting four officials
from various program offices to inquire about STEP employment for his children. Through an
examination of the official's email records and interviews with various program officials, we
discovered that the official made contact with a total of 12 officials (See Appendix 1). Notably,
1 of the 12 individuals contacted was a high level official in Human Capital.

Although various officials told us that they believed solicitation for STEP opportunities on
behalf of relatives had become a common practice, various sources within the Department
established that such activities were problematic. For example, the Department provided
employees with annual computer-based and/or in-person ethics training that outlined prohibitions
against attempts to influence decisions that could result in personal gain. We also noted that the
Department had taken action to provide ethics information through the use of broadcast emails
on the same subject. For example, in March 2009, a broadcast email, Ethics in Brief-Nepotism,
cautioned employees regarding possible nepotism violations, and provided examples addressing
the appropriate role for a Federal employee in supporting a relative's employment. While we
                                                3

acknowledge that the senior EERE official was not employed by the Department when this
particular bulletin was issued, other officials involved with the activities in question were
employed by the Department at that time. Additionally, a March 2010 broadcast email cautioned
employees against Misuse of Position, specifically noting that "…employees shall not use their
government position, title or authority in a manner intended to induce another to provide benefit
to…relatives or affiliated persons."

Nepotism or even its appearance can have a decidedly negative impact on morale within an
organization. As is readily apparent, providing inappropriate advantages for relatives of Federal
employees damages the integrity of the competitive process and erodes public trust in the Federal
hiring process. The impact is likely severe, especially when considering the intense competition
for STEP intern positions within the Department. In fact, over 750 applications were received
from public sources just for the organizations directly serviced by Human Capital for the
FY 2012 STEP process.

On a positive note, Department officials told us that they are taking action to reform the student
intern hiring process. In December 2010, the President signed Executive Order 13562,
Recruiting and Hiring Students and Recent Graduates, known as the Pathways Program. The
Pathways Program replaced STEP and several other Federal intern programs. In May 2012, the
final rule for the Pathways Program was published by the U.S. Office of Personnel Management.
Human Capital officials told us that the Pathways Program creates an opportunity to eliminate
concerns on the selection process, as all applicants will be required to apply to open job
announcements to be considered for hiring.

While implementation of the Pathways Program may be a positive step, it was not entirely clear
that such programs alone will end the pattern of advocating for the hiring of employees' relatives.
Despite the Department's ethics program and information regarding prohibited personnel
practices, advocating for the selection of relatives appears to have become an open and widely
accepted Departmental practice. As such, we made several recommendations designed to
address the issues described in our report and strengthen internal controls over certain hiring
process within the Department.

OTHER MATTERS

During the course of our inspection, additional information came to our attention regarding the
employment of other senior officials' relatives as STEP interns. These issues could indicate that
the problems we observed were not limited to the senior EERE official or the actions we
specifically reviewed. We referred these matters to both the Department's Chief Human Capital
Officer and the General Counsel.

We also received information that a member of the OIG had communicated with Department
officials regarding employment for his child. We consider this matter to be serious.
Administrative action is in process.
                                                  4


MANAGEMENT COMMENTS

Management concurred with the recommendations in the report. Specifically, the Assistant
Secretary for Energy Efficiency and Renewable Energy, in coordination with the General
Counsel and the Chief Human Capital Officer, agreed to review information gathered by the
OIG, as well as other information regarding the circumstances leading to the selection of the
senior official's children. Their findings will be the basis for appropriate corrective action.
Counsel and the Chief Human Capital Officer, agreed to review information gathered by the
OIG, as well as other information regarding the circumstances leading to the selection of the
senior official's children. Their findings will be the basis for appropriate corrective action.

Additionally, the Office of the General Counsel (OGC) and Human Capital personnel will
conduct an initial review of the circumstances leading to the appointment of relatives of certain
Department employees and inform the respective program offices if circumstances indicate
potentially inappropriate appointments were made. The Department indicated that a number of
other actions either had been or will be initiated, in response to our draft report. The OGC sent a
broadcast message to all employees explaining the various statutes and regulations that prohibit a
Federal employee from using his or her official position to secure employment for relatives. The
OGC will place additional emphasis on these matters during the 2013 annual ethics training
provided to senior executives and other senior employees. Human Capital will also place greater
emphasis on these topics in the ethics training routinely provided to new supervisors. Further,
Human Capital will issue guidance to all Directors of Human Resources Offices in the
Department to specifically examine the answers to eligibility questions on all Departmental
USAJobs applications. If a family member is identified as being employed with the Department,
the Human Resources Office will verify that the family member has not been involved with or
influenced the hiring processes. Additionally, Human Capital will work with the contractor for
the Department's front-end hiring management system to include language that specially defines
"family" in the eligibility questions, to ensure consistency with the definition of that term in Title
5 CFR, Section 3110.

Finally, the Chief Human Capital Officer has established a workgroup which was instrumental in
developing the Desktop Reference on Career Pathways. The Desktop Reference contains
citations and references reminding Human Resources professionals, hiring managers and
supervisors, of the Merit System Principles, Prohibited Personnel Practices, Nepotism,
Impartiality, and other ethics rules. The Chief Human Capital Officer offered a draft copy of the
Desktop Reference for comment to both the servicing Human Resources offices and the
Pathways Coordinators. The Desktop Reference will also be submitted to the OGC for final
review.

The comments provided by EERE, OGC and Human Capital are attached in their entirety in
Appendix 4.

Attachment

cc:   Deputy Secretary
      Acting Chief of Staff
      Assistant Secretary for Energy Efficiency and Renewable Energy
      General Counsel
      Chief Human Capital Officer
REPORT ON ALLEGED NEPOTISM AND WASTEFUL SPENDING IN
THE OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY


TABLE OF
CONTENTS

Details of Finding ............................................................................................................................1

Recommendations ............................................................................................................................4

Management and Inspector Comments ............................................................................................5


Appendices

1. Contact List to Secure STEP Employment ...............................................................................7

2. Objective, Scope and Methodology ...........................................................................................8

3. Prior Reports ............................................................................................................................10

4. Management Comments ..........................................................................................................11
ALLEGED NEPOTISM AND WASTEFUL SPENDING IN THE OFFICE OF
ENERGY EFFICIENCY AND RENEWABLE ENERGY
Student Temporary Employment Program

Consistent with the allegations, our inspection revealed that a senior Office of Energy Efficiency
and Renewable Energy (EERE) official was actively involved in securing Student Temporary
Employment Program (STEP) opportunities for his three college-age children during the summer
of 2012. The allegation related to enrolling his children in costly training courses unrelated to
their STEP intern duties was not substantiated.

The STEP provides opportunities for students in high school and college to gain work
experience, while enhancing their awareness of the Department's mission and functions. The
Department's Guide on the Federal Intern Program established requirements for administering
STEP. In order to streamline the hiring process, STEP appointments are exempted from the
usual competitive selection examining procedures; however, this streamlined process does not
negate the responsibility for ensuring a fair and open competitive process during the selection of
STEP participants. Despite the exemption, the Department's Office of the Chief Human Capital
Officer (Human Capital) recommended that Department program offices follow a fair and open
competitive process in the selection of STEP participants.

Human Capital officials informed us that the hiring process for STEP interns included posting a
vacancy announcement on USAjobs.gov (from January to February 2012), announcing STEP
opportunities to program offices, and providing instructions to program offices to assist with
requesting a referral list from Human Capital. We were also told that program offices could
consider applicants from other targeted recruitment efforts, such as job fairs at local colleges.
We noted that during the spring of 2012, Human Capital received over 750 applications for
STEP. Our review revealed that EERE selected 27 STEP interns for the summer of Fiscal Year
(FY) 2012; 6 of the 27 STEP interns had relatives working in EERE.

                                      STEP Intern Selections

A number of Federal statutes and regulations prohibit employees from securing positions for
their relatives. The nepotism statute, Title 5 U.S. Code, Section 3110 (b), Employment of
Relative Restrictions, and Section 2302 (b), Prohibited Personnel Practices, indicates, in part,
that a public official may not appoint, employ, or advocate for the appointment or employment
of a relative in the agency in which the individual is serving. Furthermore, Title 5 Code of
Federal Regulations (CFR), Section 2635.702 Subpart G, Misuse of Position, states, in part, that
employees shall not use their public office for the private gain of relatives. Additionally, Subpart
E of Title 5 CFR, Section 2635.501, Impartiality in Performing Official Duties, states, in part,
that an employee should not participate in a particular matter known to affect the financial
interest of a member of the employee's household.

Contrary to these regulations, we determined that a senior EERE official contacted 12
Department officials from 7 different program offices to inquire about STEP intern employment
for his children. During an interview with the senior EERE official, he stated that he recalled




Page 1                                                                         Details of Finding
contacting four officials from various program offices to inquire about STEP employment for his
children. Through an examination of the official's email records and interviews with various
program officials, we discovered that the official made contact with a total of 12 officials (See
Appendix 1). For example, during the spring of 2012, the senior EERE official contacted:

   •   A high level Human Capital official and asked to be contacted regarding summer interns.

   •   A senior official in the Office of the Chief Information Officer a number of times to
       follow up on his inquiries regarding STEP employment for one of his children. In this
       example, the contacted program office decided to reverse its previously announced
       decision to not hire interns during FY 2012 and subsequently hired one of the senior
       EERE official's children as a STEP intern.

   •   An EERE official with hiring authority over STEP interns and inquired about STEP
       opportunities for one of his children. That EERE official, subordinate to the senior EERE
       official in terms of grade but not in the senior EERE official's direct reporting chain,
       subsequently hired two of the senior EERE official's children as STEP interns to work
       within EERE.

   •   Two Office of Inspector General (OIG) senior officials regarding STEP employment
       opportunities for his children; however, the two officials informed us that they did not
       offer any employment opportunities to the senior EERE official's children. The OIG
       officials also indicated that the senior EERE official did not request and they did not
       provide any advice regarding regulatory requirements.

The senior EERE official told us that he did not believe there was any wrongdoing on his part
and that based on personal observations, the practice of employees providing resumes and/or
inquiring about employment for a STEP position on behalf of relatives was common. The senior
EERE official also indicated that he had previously sought advice from an EERE Human
Resources official regarding employment of his children and was told that there was not a
concern as long as the children did not work under the relative's direct supervision. In addition,
the two officials that made hiring selections for the senior EERE official's children ultimately
told us that they did not feel pressured by the senior EERE official inquiring about STEP
opportunities for his children. Further, these officials told us that they believed it was a common
practice for individuals to provide resumes or to inquire with various program offices in an effort
to secure STEP intern employment opportunities for relatives.

Although various officials told us that they believed solicitation for the STEP employment of
relatives had become a common practice, information from various sources within the
Department established that such activities could be inappropriate and that Department
employees should have been aware of this fact. For example, the Department provided
employees with annual computer-based and/or in-person ethics training that outlined prohibitions
against attempting to influence decisions that could result in personal gain. We also noted that
the Department had provided relevant ethics information through the use of broadcast emails on
the same subject. For example, in March 2009, a broadcast email, Ethics in Brief-Nepotism,
cautioned employees regarding possible nepotism violations, and provided examples addressing


Page 2                                                                         Details of Finding
the appropriate role for a Federal employee in supporting a relative's employment. While we
acknowledge that the senior EERE official was not employed by the Department when this
particular bulletin was issued, other officials involved with the activities in question were
employed by the Department at that time. Additionally, a March 2010 broadcast email cautioned
employees against Misuse of Position, specifically noting that "…employees shall not use their
government position, title or authority in a manner intended to induce another to provide benefit
to…relatives or affiliated persons."

                                 Recent Hiring Practice Changes

In December 2010, the President signed Executive Order 13562, Recruiting and Hiring Students
and Recent Graduates, known as the Pathway Programs. The Pathways Program replaced STEP
and several other Federal intern programs. In May 2012, the final rule for the Pathways Program
was published by the U.S. Office of Personnel Management. Human Capital officials told us
that the Pathways Program creates an opportunity to eliminate concerns on the selection process,
as all applicants will be required to apply to open job announcements to be considered for hiring.

While we recognize that the Department is currently implementing guidance for the Pathways
Program, we are unsure as to how our concerns about solicitation and advocating for relatives
would be resolved by simply implementing the Pathways Program. Despite the existing
Department's ethics program and information regarding prohibited personnel practices,
advocating for the selection of relatives appears to have become an open and well-known
practice.

                                       STEP Intern Training

We did not find any evidence that the senior EERE official wasted funds by enrolling his
children in costly training courses unrelated to their STEP intern duties. The Department's guide
on Federal Intern Programs allowed program offices to provide training to STEP interns as long
as the training is directly related to the occupation as well as the overall mission and function of
the office. During the course of interviews, an EERE official stated that STEP interns should be
generally cross-trained to allow the individuals to gain an overall understanding of EERE's
mission and functions.

We determined that two of the senior EERE official's children participated in Contracting
Officer Technical Representative, a free online course. We also determined that this training was
offered to other STEP interns within EERE. We further determined that one child participated in
two contracting training courses — grants and cooperative agreements — at no incremental cost
to the Department. We noted that these training courses were typically offered to permanent
EERE Federal employees to assist with maintaining their certifications; however, we were told
by EERE personnel that because courses had not been filled to capacity, the STEP interns were
allowed to participate. Our review revealed that the supervisor for one child approved the
training with a comment indicating that the approval was contingent upon the course not being
full. In addition, we reviewed training records for the third child working in the Office of the




Page 3                                                                          Detail of Finding
Chief Information Officer and determined that the child participated in three online training
courses — Cyber Security, Managing for Rapid Change and Supervisory/Non Supervisory
training. We determined that this training resulted in no additional cost to the Department.
While one could question why STEP interns were provided training of this sort, we did not find
the actions to be specifically prohibited.

                                 Contributing Factors and Impact

Long standing, informal STEP hiring practices contributed to the issues we observed. Not to be
ignored, however, is the senior EERE official's direct promotion of his own self-interest.
Further, while the Department's Office of the General Counsel (OGC) provided computer-based
and in-person ethics training, program officials we interviewed appeared to misunderstand the
prohibitions of nepotism, expressing their belief that there was not a problem if the relative did
not work under the direct supervision of the Department official.

Nepotism or even the appearance of nepotism in an organization can have a decidedly negative
impact on employee morale. Providing inappropriate advantages for relatives of Federal
employees damages the integrity of the competitive process, erodes public trust in the merit
protection process, and undermines basic fairness, especially when over 750 applications were
received from public sources for the 2012 summer program. The impact is likely severe,
especially when considering the intense competition for STEP intern positions within the
Department.
                                         Other Matters

During the course of our inspection, additional information came to our attention that could
indicate that nepotism issues were not limited to the actions of the senior EERE official we
reviewed. We referred these matters to both Human Capital and OGC officials for action, as
appropriate.

We also received information that a member of the OIG communicated with Department
officials regarding STEP employment opportunities for his child and facilitated contact between
the Department and the child. We consider this matter to be serious. Administrative action is in
process.

RECOMMENDATIONS

To help prevent the recurrence of the issues we observed, we recommend that the Assistant
Secretary for Energy Efficiency and Renewable Energy, in coordination with the General
Counsel and the Chief Human Capital Officer:

   1. Determine whether the EERE senior official violated the standards of conduct or engaged
      in nepotism and/or other prohibited personnel practices and take appropriate action.




Page 4                                                                       Recommendations
Also, we recommend that the respective program office officials coordinate with the OGC, and
Human Capital to:

   2. Determine whether nepotism or improper preferences occurred in connection with the
      appointment of relatives of Department employees not specifically covered during this
      review and take appropriate action; and

   3. Re-evaluate training materials and guidance to ensure that the Federal nepotism statute
      and other prohibited personnel practices are clear to Department personnel.

Further, we recommend that the Chief Human Capital Officer ensure:

   4. Reviews of applicants' hiring packages are conducted to confirm that applicants disclose
      information regarding relatives; and

   5. Department officials are trained on the newly established requirements of the Pathways
      Program.

MANAGEMENT COMMENTS

Management concurred with the five recommendations in the report. Specifically, with regard to
Recommendation 1, the Assistant Secretary for Energy Efficiency and Renewable Energy, in
coordination with the General Counsel and the Chief Human Capital Officer agreed to review
information gathered by the OIG, as well as other information regarding the circumstances
leading to the selection of the senior official's children. Their findings will be the basis for
appropriate corrective action. EERE will act in light of the findings and their seriousness.

Regarding Recommendation 2, OGC and Human Capital personnel will conduct an initial review
of the circumstances leading to the appointment of relatives of certain Department employees
and inform the respective program offices if circumstances indicate potentially inappropriate
appointments were made. The OGC and Human Capital will assist the program offices in
determining and taking appropriate action, if warranted.

Pursuant to Recommendation 3, the OGC sent a "DOECAST" message to all employees
explaining the various statutes and regulations that prohibit a Federal employee from using his or
her official position to secure employment for relatives. The OGC will also place additional
emphasis on these matters during the 2013 annual ethics training provided to senior executives
and other senior employees. Human Capital will also place greater emphasis on these topics in
the ethics training routinely provided to new supervisors.

In response to Recommendation 4, the Chief Human Capital Officer will issue guidance to all
Directors of Human Resources Offices in the Department to specifically examine the answers to
eligibility questions on all Departmental USAJobs applications. If a family member is identified
as being employed with the Department, the Human Resources Office will verify that the family
member has not been involved with or influenced the hiring processes. Additionally, Human
Capital will work with the contractor for the Department's front-end hiring management system,



Page 5                                                               Management Comments
to include the language that specially defines "family" to ensure consistency with the definition
of that term in 5 CFR, Section 3110.

Finally, in response to Recommendation 5, management advised that the Chief Human Capital
Officer previously established a workgroup a year ago that was instrumental in developing the
Desktop Reference on Career Pathways. The Desktop Reference contains citations and
references to remind Human Resources professionals, hiring managers and supervisors of the
Merit System Principles, Prohibited Personnel Practices, Nepotism, Impartiality, and other ethics
rules. The Chief Human Capital Officer offered a draft copy of the Desktop Reference for
comment to both the servicing Human Resources offices and the Pathways Coordinators. The
Desktop Reference will also be submitted to the OGC for final review.

Management's planned actions are responsive to our recommendations.




Page 6                                                                Management Comments
Appendix 1

             DEPARTMENT OFFICIALS CONTACTED BY THE
     SENIOR ENERGY EFFICIENCY AND RENEWABLE ENERGY OFFICIAL
     REGARDING THE STUDENT TEMPORARY EMPLOYMENT PROGRAM

     Date Contacted      Senior Official                       Program Office

   April 26, 2010             Yes          Office of the Chief Financial Officer

   No Date 2011               No           Office of Energy Efficiency and Renewable Energy

   March 8, 2012              Yes          Office of the Chief Human Capital Officer

   April 18, 2012             Yes          Office of Inspector General

   April 20, 2012             Yes          Office of Environmental Management

   May 7, 2012                Yes          Office of Science

   May 7, 2012                Yes          Office of the Chief Information Officer

   May 8, 2012                Yes          Office of Energy Efficiency and Renewable Energy

   May 2012                   Yes          Office of Inspector General

   May 10, 2012               No           Office of Energy Efficiency and Renewable Energy

   June 5, 2012               No           Office of the Chief Financial Officer

   May 7- June 5, 2012        Yes          Office of the Chief Information Officer




Page 7                                             Contact List to Secure STEP Employment
Appendix 2

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to determine the facts and circumstances surrounding the
allegations. Specifically, it was alleged that a senior official within the Office of Energy
Efficiency and Renewable Energy (EERE) engaged in nepotism by advocating for his three
children to obtain Student Temporary Employment Program (STEP) positions at the Department
and wasted funds by enrolling two of the three children in costly training courses unrelated to
their duties.

SCOPE

We conducted this allegation-based inspection between August 2012 and May 2013, at
Department of Energy (Department) Headquarters, Washington, DC.

METHODOLOGY

To accomplish the inspection objective, we:

    • Reviewed and analyzed Federal regulations related to hiring, hiring programs and
      training documents;

    • Interviewed Federal personnel from EERE, the Office of the Chief Information Officer,
      the Office of the Chief Human Capital Officer, and the Office of the General Counsel;
      and,

    • Reviewed written statements from specific Office of Inspector General (OIG) employees
      regarding potential STEP employment of the EERE official's children.

In addition, during our inspection, we received information that a member of the OIG
communicated with Department officials regarding employment for his child and facilitated
contact between the Department and his child. We consider this matter to be serious.
Administrative action is in process.

We conducted this allegation-based inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency's Quality Standards for Inspection and Evaluation, January
2012. Those standards require that we plan and perform the inspection to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions and observations based on
our inspection objectives. We believe the evidence obtained provided a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection. We
relied on computer-processed data to some extent to satisfy our objectives. We confirmed the
validity of such data as appropriate by conducting interviews and analyzing source documents.

Page 8                                                     Objective, Scope and Methodology
Appendix 2 (continued)

We conducted an exit conference with EERE on May 29, 2013.




Page 9                                               Objective, Scope and Methodology
Appendix 3

                                        PRIOR REPORT

•   Audit Report on Review of Allegations Regarding Hiring and Contracting in the Office of
    Energy Efficiency and Renewable Energy (OAS-SR-10-04, September 2010). The objective
    of this inspection was to determine in part whether there were improprieties in the hiring of a
    contract employee to a senior Federal career position, including concerns that the contract
    employee was pre-selected or otherwise had an unfair advantage. We concluded that the
    allegation related to pre-selection of an Office of Energy Efficiency and Renewable Energy
    senior official was substantiated. We made several recommendations designed to help
    improve the integrity of the hiring process.




Page 10                                                                             Prior Report
Appendix 4

             MANAGEMENT COMMENTS




Page 11                            Management Comments
Appendix 4 (continued)




Page 12                  Management Comments
Appendix 4 (continued)




Page 13                  Management Comments
                                                             IG Report Number: DOE/IG-0888



                                 CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message clearer to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name __________________________________ Date ________________________

Telephone ______________________________ Organization __________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                              Office of Inspector General (IG-1)
                                    Department of Energy
                                   Washington, DC 20585

                                 ATTN: Customer Relations

    If you wish to discuss this report or your comments with a staff member of the Office of
                 Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
